                            SOCIAL SECURITY
                                       July 2, 2008

The Honorable Herb Kohl
Chairman
Special Committee on Aging
United States Senate
Washington, D.C. 20510

Dear Mr. Chairman:

I am pleased to provide you with the enclosed report addressing your August 7, 2007
letter asking that we determine whether financial institutions (FI) were deducting service
fees and garnishments from beneficiaries’ direct deposit, personal accounts.
Specifically, we analyzed data maintained in the Social Security Administration’s (SSA)
systems to identify the 12 largest FIs and a sample of 13 small-, medium- and large-
sized FIs that received electronic deposit of payments to Social Security beneficiaries in
the United States. Based on the information provided by the FIs reviewed, this report
reflects

•   the number of FIs that allowed the garnishment of Old-Age, Survivors and Disability
    Insurance and/or Supplemental Security Income payments;
•   the number of accounts upon which garnishment-related fees were imposed and the
    total dollar amount of fees charged to these accounts as a result of the garnishment;
    and
•   the types of fees these FIs charged beneficiaries.

However, because of the nature of the review and time constraints, we did not
independently verify the information reported by the FIs.

A similar letter is being sent to Senators Baucus and McCaskill. If you have any
questions or would like to be briefed on this issue, please call me or have your staff
contact Wade Walters, Assistant Inspector General for Congressional and
Intra-Governmental Liaison, at (202) 358-6319.

                                                 Sincerely,



                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General
Enclosure

cc:
Michael J. Astrue, Commissioner of Social Security


            SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                                       July 2, 2008

The Honorable Max Baucus
Chairman
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Mr. Chairman:

I am pleased to provide you with the enclosed report addressing your August 7, 2007
letter asking that we determine whether financial institutions (FI) were deducting service
fees and garnishments from beneficiaries’ direct deposit, personal accounts.
Specifically, we analyzed data maintained in the Social Security Administration’s (SSA)
systems to identify the 12 largest FIs and a sample of 13 small-, medium- and large-
sized FIs that received electronic deposit of payments to Social Security beneficiaries in
the United States. Based on the information provided by the FIs reviewed, this report
reflects

•   the number of FIs that allowed the garnishment of Old-Age, Survivors and Disability
    Insurance and/or Supplemental Security Income payments;
•   the number of accounts upon which garnishment-related fees were imposed and the
    total dollar amount of fees charged to these accounts as a result of the garnishment;
    and
•   the types of fees these FIs charged beneficiaries.

However, because of the nature of the review and time constraints, we did not
independently verify the information reported by the FIs.

A similar letter is being sent to Senators Kohl and McCaskill. If you have any questions
or would like to be briefed on this issue, please call me or have your staff contact
Wade Walters, Assistant Inspector General for Congressional and Intra-Governmental
Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue, Commissioner of Social Security


            SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                                       July 2, 2008

The Honorable Claire McCaskill
United States Senate
Washington, D.C. 20510

Dear Senator McCaskill:

I am pleased to provide you with the enclosed report addressing your August 7, 2007
letter asking that we determine whether financial institutions (FI) were deducting service
fees and garnishments from beneficiaries’ direct deposit, personal accounts.
Specifically, we analyzed data maintained in the Social Security Administration’s (SSA)
systems to identify the 12 largest FIs and a sample of 13 small-, medium- and large-
sized FIs that received electronic deposit of payments to Social Security beneficiaries in
the United States. Based on the information provided by the FIs reviewed, this report
reflects

•   the number of FIs that allowed the garnishment of Old-Age, Survivors and Disability
    Insurance and/or Supplemental Security Income payments;
•   the number of accounts upon which garnishment-related fees were imposed and the
    total dollar amount of fees charged to these accounts as a result of the garnishment;
    and
•   the types of fees these FIs charged beneficiaries.

However, because of the nature of the review and time constraints, we did not
independently verify the information reported by the FIs.

A similar letter is being sent to Senators Baucus and Kohl. If you have any questions or
would like to be briefed on this issue, please call me or have your staff contact
Wade Walters, Assistant Inspector General for Congressional and Intra-Governmental
Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue, Commissioner of Social Security



            SOCIAL SECURITY ADMINISTRATION            BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Financial Institutions Deducting
    Fees and Garnishments
 From Social Security Benefits
          A-15-08-28031




            July 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                              Introduction
OBJECTIVE

The objective of our review was to determine whether financial institutions (FI) were
deducting service fees and garnishments from beneficiaries’ direct deposit, personal
accounts. This report contains information related to the 12 largest FIs and a sample of
13 small-, medium- and large-sized FIs that received electronic deposit of payments to
Social Security beneficiaries in the United States from September 1, 2006 through
August 31, 2007. Specifically, this report contains information on

•     the number of FIs that allowed the garnishment of Old-Age, Survivors and Disability
      Insurance (OASDI) 1 and/or Supplemental Security Income (SSI) 2 payments;

•     the number of accounts upon which garnishment-related fees were imposed and the
      total dollar amount of fees charged to these accounts as a result of the garnishment;
      and

•     the types of fees these FIs charged beneficiaries.

BACKGROUND
Debt Collection Improvement Act

In Fiscal Year (FY) 1995, the Social Security Administration (SSA) electronically
deposited 53.5 percent of the total number of OASDI and SSI payments. In April 1996,
Congress passed the Debt Collection Improvement Act (DCIA), 3 which requires that
most Federal payments, except tax refunds, be made electronically as of
January 1999. 4 In FY 1999, SSA electronically deposited 71 percent of the total OASDI
and SSI payments. Each year since FY 1999, SSA has continued to increase its
reliance on direct deposit as a method for issuing payments. As of December 2007,
SSA had electronically deposited 81.4 percent of the total OASDI and SSI payments. A


1
 The OASDI program, established under Title II of the Social Security Act (Act), § 201 et seq., 42 United
States Code (U.S.C.) § 401 et seq. provides benefits to wage earners and their families in the event the
wage earner retires, becomes disabled or dies. OASDI benefits are paid from the Social Security OASDI
Trust Funds.
2
  The SSI program, established under Title XVI of the Act, § 1601 et seq. 42 U.S.C. § 1381 et seq
provides benefits to financially needy individuals who are aged, blind and/or disabled. SSI payments are
financed from general tax revenues.
3
    Public Law (P.L.) 104–134; Title III, Chapter 10, Sec. 31001; codified at 31 U.S.C. § 3701 et seq.
4
    31 U.S.C. §3332(f).


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                          1
breakdown of direct deposit usage by program shows that 84.8 percent of OASDI
payments were electronically deposited, whereas the total for SSI payments was
58.8 percent.

The Social Security Act

The Act 5 protects the beneficiary’s right to receive Social Security benefits (OASDI and
SSI) directly and to use them as he/she sees fit. 6 Specifically, Section 207(a) of the Act
(42 U.S.C. §407(a)) states:

        The right of any person to any future payment under this title shall not
        be transferable or assignable, 7 at law or in equity, and none of the
        monies paid or payable or rights existing under this title shall be subject
        to execution, levy, attachment, garnishment, or other legal process, or
        to the operation of any bankruptcy or insolvency law.

However, there are five exceptions related to Social Security benefits.

     1. Section 459 of the Act (42 U.S.C. §659) allows Social Security benefits to be
        garnished 8 to enforce child support 9 and/or alimony10 obligations. 11



5
  Section 207 of the Act, 42 U.S.C. §407 (applicable to Title XVI benefits pursuant to section 1631(d)(1) of
the Act, 42 U.S.C. §1383(d)(1)).
6
 SSA currently recommends to beneficiaries that if a garnishment is issued against their account, the
beneficiary should assert this statute as a defense, unless one of the five exceptions apply. See item 2 in
“Potential Safeguards to Protect Social Security Recipients,” page 10. Additionally, Federal courts have
allowed Social Security benefits to be subject to a garnishment order in some instances.
7
  SSA, Program Operations Manual System (POMS) GN 02410.001(B)(1), Assignment is the transfer of
the right to, or payment of, benefits to a party other than the beneficiary.
8
 POMS, GN 02410.001(B)(4), Garnishment is a legal process by which benefits are taken to pay a
beneficiary’s child support and/or alimony obligation to a third party.
9
 POMS, GN 02410.200 (D), Child support is periodic payment of funds for the support and maintenance
of a child(ren) subject to, and in accordance with, State or local law.
10
   POMS, GN 02410.200 (E), Alimony is periodic payment of funds for the support and maintenance of a
spouse or former spouse subject to, and in accordance with, State or local law. It includes, but is not
limited to, separate maintenance and spousal support.
11
  By the enactment of section 459 of the Act, the United States Government consented to income
withholding for enforcement of child support and alimony obligations from certain moneys owed by the
United States and the District of Columbia. The implementing regulations to this section, 5 C.F.R. §
581.101, et seq., provide that benefits subject to these types of garnishment include title II benefits, but
not title XVI benefits. See 5 C.F.R. § 581.103(c)(1) and § 581.104(j). To initiate the process for SSA to
withhold part of a Social Security benefit payment for either child support or alimony, the appropriate court
order must be served on the person designated by SSA to accept service and process the court order.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                          2
      2. Section 6334 (c) of the Internal Revenue Code (26 U.S.C. §6334 (c)) allows
         benefits to be levied 12 to collect unpaid Federal taxes.

      3. Section 3402 (p) of the Internal Revenue Code (26 U.S.C. §3402(p)) allows
         beneficiaries to elect to have a percentage of their benefits withheld and paid to
         the Internal Revenue Service to satisfy their Federal income tax liability for the
         current year.

      4. The DCIA allows benefits to be withheld and paid to another Federal agency to
         pay a non-tax debt the beneficiary owes to that agency. 13

      5. The Tax Payer Relief Act of 1997 (Public Law 105-34; Title X, Subtitle C, Section
         1024), (26 U.S.C. § 6331(h)) authorizes the Internal Revenue Service to collect
         beneficiaries’ overdue Federal tax debts by levying up to 15 percent of each
         monthly payment until the debt is paid.

Generally, SSA’s interpretation of its responsibility for protecting benefits against legal
process 14 and assignment ends when the beneficiary is paid. However, once paid,
benefits continue to be protected under section 207 of the Act as long as they are
identifiable. For example, only Social Security benefits are deposited into a particular
bank account.

Financial Institutions’ Garnishment of Social Security Benefits

SSA recommends, “If a creditor tries to garnish your social security check, inform them
that unless one of the five exceptions apply, your benefits can not be garnished. You
also may want to provide this same information to your financial institution and seek
legal assistance if you believe it is needed.” 15

Several newspaper articles have described how FIs have frozen and assessed fees on
bank accounts into which Social Security benefits were electronically deposited. An
article in the April 28, 2007 issue of the Wall Street Journal cited several cases
nationwide where Social Security beneficiaries received their benefits through direct
deposit and had their bank accounts garnished by debt collectors. The article further
stated that, in these instances, the Social Security beneficiaries did not know their
benefits were exempt from garnishment or how to assert the exemption.



12
  POMS, GN 02410.001(B)(3), Levy is a type of legal process for the seizure of benefits for payment of
unpaid Federal taxes.
13
     31 U.S.C. §3716.
14
  POMS, GN 02410.001(B)(2), Legal process is the means by which a court (or agency or official
authorized by law) compels compliance with its demand; generally, it is a court order.
15
     http://mwww.ba.ssa.gov/deposit/DDFAQ898.htm.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                        3
A companion article in the same issue discussed how FIs tap into direct deposited
Social Security benefits in bank accounts. The article indicated that, although Federal
law exempts Social Security benefits from being garnished to repay debts, FIs assert
they are not collecting debts; instead they are “setting-off” the debts.

One FI in our sample required that the account holder agree that the FI is allowed to
“set-off” the debt. Specifically, the FI stated,

          The security interest granted by this Agreement is consensual and is in
          addition to the Bank’s right of setoff. Certain federal or state laws may be
          interpreted to protect funds received from federal or state agencies from
          setoff. You agree that our right of setoff applies to all funds deposited into
          your account, including funds received from the Social Security Administration
          and other federal or state agencies. By continuing to deposit these funds into
          your account you agree to allow the Bank to exercise its right of setoff against
          these funds, and not to assert any claim or defense that these deposits are
          exempt from setoff based on any federal or state law, rule or regulation.

In this way, the FI collects the moneys owed it from the moneys in the beneficiary’s
account.

Based on these and other articles, the Senate Special Committee on Aging and the
Senate Committee on Finance, in an August 7, 2007 letter, requested that we determine
whether FIs were deducting service fees and garnishments from beneficiaries’ direct
deposit, personal accounts. They specifically requested that we review the 12 largest
FIs and a select number of small- and medium-sized FIs that received electronic
deposits of payments to Social Security beneficiaries in the last 12 months to determine
the following.

1. How many of these accounts have been garnished at creditors requests?

2. The number of accounts upon which fees in relation to such garnishment were
   imposed, the number of times these fees were imposed, and the total dollar amount
   of fees charged to these accounts as a result of the garnishment. This includes all
   types of fees charged by the institution in relation to such garnishment, including
   administrative fees, fees to garnish and/or release the funds, and non-sufficient funds
   (NSF).

In response to the request, we selected a sample of the 12 largest sized 16 FIs and
13 randomly selected small- 17, medium- 18 and large-sized 19 FIs. Refer to Appendix C

16
     Largest sized FIs are FIs with more than 20,000 beneficiaries with direct deposit.
17
     Small-sized FIs are FIs with between 1 and 50 SSA beneficiaries with direct deposit.
18
     Medium-sized FIs are FIs with between 51 and 100 SSA beneficiaries with direct deposit.
19
     Large-sized FIs are FIs with between 101 and 20,000 SSA beneficiaries with direct deposit.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                 4
for the top 12 largest sized FI data and Appendix D for the 13 small-, medium- and
large-sized FI data on the FIs included in this review.

We issued a subpoena to the FIs requesting statistical information, records and/or
documents for the period September 1, 2006 through August 31, 2007. Also, we issued
a follow-up letter to the FIs requesting information on the FIs “account hold” and
“account freeze” process. Refer to Appendix G for the subpoena and follow-up letter
questions.

Generally, the processes for holding and freezing funds are incorporated into the FIs’
garnishment processes. Therefore, our results take into account the holding and/or
freezing of funds.

For example, one FI stated that “account holds” or “account freezes” are processes that
may be taken on an account for various reasons, including as part of a garnishment or
levy action. Depending on the applicable State or Federal law and the type of
garnishment or levy involved, an “account hold” or “account freeze” may be placed on
an account.

If an account has sufficient funds to cover the entire garnishment or levy amount, only
those funds necessary to cover the garnishment or levy will receive an “account hold,”
and no “account freeze” will occur. The remaining funds in the account will be available
for use by the account holder, unless applicable law requires a larger “account hold” or
an “account freeze” to be maintained for a period of time regardless of whether funds
available in the account are sufficient to cover the amount of a garnishment or levy.
From our review, we determined the laws of the States in this area were not uniform.
Applicable law may require that an account with an insufficient balance of funds to cover
the entire amount of the garnishment or levy have an “account freeze” placed on the
account for a period of time to see if new deposits are received, which would also be
subject to the garnishment or levy. In contrast, applicable law may only require that
available funds currently in the account be seized at the time the garnishment or levy is
received.

In response to the request, several FIs asserted that much of the information provided is
confidential and should not be identified to a specific financial institution; therefore, we
have not identified the FIs by name to protect confidentiality.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)         5
                                                            Results of Review
Although we did not independently verify the information reported by the 25 FIs, 20 the
data indicated that some FIs deducted service fees and garnishments from
beneficiaries’ direct deposit, personal accounts. We have presented the aggregate FI
statistics on garnishments involving accounts receiving only direct deposited Social
Security benefits and those accounts where there were both direct deposited Social
Security benefits and other deposits. Specifically, we aggregated the information to
determine the (1) number of FIs with garnishments, (2) number of SSA account holders,
(3) number and total amount of garnishments, and (4) total amount of fees. Also, we
identified potential safeguards to protect Social Security recipients from garnishments.

NUMBER OF FINANCIAL INSTITUTIONS WITH GARNISHMENTS
Based on the information provided, only 19 FIs were able to provide the information in a
format that was usable for our review purposes, and 7 (37 percent) of the 19 FIs
included reported that they had garnished funds in accounts where only SSA benefit
payments had been deposited.

               Table 1 – Number of Financial Institutions Garnishing
                   Only Direct Deposits of Social Security Benefits
                                 Number FIs             Number of FIs Garnishing
  Financial Institutions          in Sample           Only Social Security Deposits
 Small-Sized                                      4                                0
 Medium-Sized                                     4                                0
 Large-Sized                                      5                                1
 Largest Sized                                   12                                6
 Total                                           25                                7

 Note: Refer to Appendix E for the limitation on the FI’s information.

 Also, two medium-sized and one large-sized FIs received garnishment orders but did
 not garnish the amounts due to the fact the funds were exempt (that is, Social
 Security funds).

With respect to accounts receiving direct deposited Social Security benefits as well as
other deposits, we determined that 20 FIs were able to provide the data in a useful
format, and 14 (70 percent) of the 20 FIs had garnished funds from the accounts
meeting this criteria.




20
     The 25 FIs consists of 20 banks and 5 credit unions.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)         6
               Table 2 – Number of Financial Institutions Garnishing
           Direct Deposited Social Security Benefits and Other Deposits
                          Number of FIs            Number of FIs Garnishing
  Financial Institutions    in Sample      Both Social Security and Other Deposits
 Small-Sized                           4                                          0
 Medium-Sized                          4                                          2
 Large-Sized                           5                                          4
 Largest Sized                        12                                          8
 Total                                25                                        14

 Note: Refer to Appendix E for the limitation on the FI’s information.

NUMBER OF ACCOUNT HOLDERS
There were about 1.3 million account holders included in our results receiving only
direct deposited Social Security benefits. Although 19 FIs were able to identify the
number of garnishments with only direct deposit of Social Security benefits, only 18
were able to tell us how many account holders there were for the accounts in question.

                      Table 3 – Number of Account Holders with
                   Only Direct Deposits of Social Security Benefits
                            Number of FIs           Number of Account Holders
 Financial Institutions       in Sample         With Only Social Security Deposits
Small-Sized                                4                                     491
Medium-Sized                               4                                   3,170
Large-Sized                                5                                   2,861
Largest Sized                             12                               1,282,343
Total                                     25                               1,288,865

Note: Refer to Appendix E for the limitation on the FI’s information.

Also, there were about 6.6 million account holders included in our results who were
receiving direct deposited Social Security benefits and other deposits. Although 20 FIs
were able to identify the number of garnishments with direct deposit of Social Security
benefits and other deposits, only 17 were able to tell us how many account holders
there were for the accounts in question.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)         7
                      Table 4 – Number of Account Holders with
           Direct Deposited Social Security Benefits and Other Deposits
                          Number of FIs          Number of Account Holders
 Financial Institutions     in Sample      With Social Security and Other Deposits
 Small-Sized                           4                                         76
 Medium-Sized                          4                                      3,894
 Large-Sized                           5                                      4,809
 Largest Sized                        12                                  6,554,764
 Total                                25                                  6,563,543

 Note: Refer to Appendix E for the limitation on the FI’s information.

NUMBER AND TOTAL AMOUNT OF GARNISHMENTS
Social Security Benefits

Nineteen FIs had garnished funds from 1,686 accounts receiving only direct deposited
Social Security benefits for a total of about $1.1 million.

             Table 5 – Number and Total Amount of Garnishments with
                    Only Direct Deposits of Social Security Benefits
                            Total Number           Total Amount of Garnishment
 Financial Institutions    of Garnishments       on Only Social Security Deposits
 Small-Sized                               0                                      $0
 Medium-Sized                              0                                       0
 Large-Sized                               1                                   3,900
 Largest Sized                        1,685                                1,075,658
 Total                                1,686                               $1,079,558

Of these 1,686 garnishments, the FIs garnished 639 accounts receiving only direct
deposited Social Security benefits for a total of $478,293 for Internal Revenue Service
Tax Levy, Alimony, or Child Support.

Social Security Benefits and Other Deposits

Also, 20 FIs had garnished 12,747 accounts receiving direct deposited Social Security
benefits and other deposits for a total of about $29.3 million.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)         8
                 Table 6 – Number and Total Amount of Garnishments with
              Direct Deposited Social Security Benefits and Other Deposits
                             Total Number of       Total Amount of Garnishment
      Financial Institutions  Garnishments     On Social Security and Other Deposits
     Small-Sized                             0                                    $0
     Medium-Sized                            6                                 5,038
     Large-Sized                             7                                50,151
     Largest-Sized                     12,734                            29,244,743
     Total                             12,747                           $29,299,932

Of these 12,747 garnishments, the FIs garnished 5,142 accounts receiving direct
deposited Social Security benefits and other deposits for a total of about $9.2 million for
Internal Revenue Service Tax Levy, Alimony, or Child Support.

Population Estimate 21

The FIs garnished $30,379,490 associated with the 7,852,408 beneficiaries in our
sample. Assuming all Social Security beneficiaries and all FIs in the United States
exhibit similar characteristics, we estimate about $177.7 million in total garnishments for
the population of approximately 45.9 million direct deposit beneficiaries in the United
States (as of February 2008).

Also, 6,563,543 of the 7,852,408 beneficiaries received direct deposit of Social Security
benefits and additional direct deposits into their accounts, and $29,299,932 of the
$30,379,390 in garnishments (approximately 96.45 percent) was attributable to these
individuals. For the remaining 1,288,865 beneficiaries whose sole direct deposit
consisted of Social Security benefits, $1,079,558 was garnished (approximately
3.55 percent).

Therefore, assuming all Social Security beneficiaries and all FIs in the United States
exhibit similar characteristics, we estimate approximately $171.4 million in garnishments
could be attributable to beneficiaries receiving direct deposit of Social Security benefits
and additional direct deposits, and approximately $6.3 million could be attributable to
beneficiaries whose sole direct deposit consisted of Social Security benefits.

TOTAL AMOUNT OF FEES
Based on the information received, we identified several FIs that charged several types
of fees as a result of the garnishments; however, not all of the FIs had actually charged
such fees. The most common fees were for legal processing and non-sufficient funds
(NSF).



21
   Although we calculated an estimate for the entire population, the estimate is for informational purposes
only. The estimate is based on information provided by the FIs. We did not independently verify the
information reported by the FIs.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                         9
Only 17 FIs were able to provide the information in a format that was usable for our
review purposes. These FIs assessed fees of $30,555 for accounts receiving only
direct deposited Social Security benefits.

                        Table 7 – Total Amount of Fees with
                 Only Direct Deposits of Social Security Benefits
                                                 Total Amount of Fees on
          Financial Institutions               Only Social Security Deposits
 Small-Sized                                                                    $0
 Medium-Sized                                                                    0
 Large-Sized                                                                    50
 Largest Sized                                                              30,505
 Total                                                                    $30,555

 Note: Refer to Appendix E for the limitation on the FI’s information.

In addition, 19 FIs assessed fees of $994,543 for accounts receiving direct deposited
Social Security benefits and other deposits.

                        Table 8 – Total Amount of Fees with
          Direct Deposited Social Security Benefits and Other Deposits
                                                  Total Amount of Fees on
           Financial Institutions           Social Security and Other Deposits
 Small-Sized                                                                   $0
 Medium-Sized                                                                  50
 Large-Sized                                                                  350
 Largest-Sized                                                            994,143
 Total                                                                  $994,543

 Note: Refer to Appendix E for the limitation on the FI’s information.

POTENTIAL SAFEGUARDS TO PROTECT SOCIAL SECURITY
RECIPIENTS
During our review, we identified potential safeguards to protect Social Security
recipients from garnishments as follows.

1. FIs stated they did not have an easy method of identifying Federal exempt electronic
   deposits (that is, SSA’s OASDI or SSI benefits) since there was no Automated
   Clearing House (ACH) code for exempt electronic funds. Therefore, the Department
   of the Treasury (Treasury) could establish an ACH code for exempt Federal benefits
   to assist FIs in easily identifying exempt and non-exempt funds. Also, Treasury
   should ensure the dissemination of the ACH codes to the FIs.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)       10
2. The relationship between State garnishment law and Federal benefit exemptions is
   complex. SSA’s interpretation of the garnishment exemptions appears to complicate
   this relationship. SSA recommends to beneficiaries that “If a creditor tries to garnish
   your social security check, inform them that unless one of the five exceptions apply,
   your benefits can not be garnished.” 22 In other words, it appears the exemption
   provision is to be treated as a defense to be raised by a beneficiary after a freeze or
   hold has been placed on an account pursuant to a garnishment order, rather than an
   absolute bar against the imposition of the freeze or hold.

      Therefore, we suggest SSA revisit its interpretation of the garnishment exemption
      provision for Social Security benefits to determine if it should be an absolute bar
      against the imposition of the freeze or hold. If SSA interprets the garnishment
      exemption provision as an absolute bar, then FI regulators (such as Treasury,
      Federal Deposit Insurance Corporation, Credit Unions etc.) need to enforce SSA’s
      interpretation.

3. FIs stated that it is difficult to distinguish exempt and non-exempt funds when the
   account holders’ funds are co-mingled. Therefore, FIs and financial regulators
   should work together to establish a policy on determining an adequate method of
   prorating garnishments between exempt and non-exempt funds (such as, First-In,
   First-Out; Last-In, First-Out; or Weighted Average). Several FIs have stated they
   prefer States to set an amount that must be retained in a bank account and cannot
   be garnished when exempt funds are involved. Connecticut and California already
   have such a law in place. 23

4. FIs stated there is no standard length of time (that is, 1 month, 1 year, inception of
   personal account) to review an account holder’s historical deposits to determine
   whether the account holder’s personal account includes exempt and/or non-exempt
   deposits. If FIs were instructed to search a specified period of time for co-mingled
   exempt and non-exempt funds, each FI could consistently determine whether there
   are co-mingled non-exempt funds available to garnish.

      Also, a FI stated that it is difficult to interact with the legacy system of another FI as a
      result of a merger with that FI. The legacy system makes it difficult to identify
      exempt funds from the merged FI.

      Therefore, FIs and financial regulators should work together to establish a policy on
      determining a specific period of time the FIs have to search for co-mingled funds
      and/or maintain legacy systems.




22
     http://mwww.ba.ssa.gov/deposit/DDFAQ898.htm.
23
  See Connecticut General Statutes §52-367b(c); California Code of Civil Procedure §704.080(b)(2), as
updated by California Code of Civil Procedure §703.150.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                   11
Additionally, the American Bankers Association has developed proposed solutions to
the problems that currently arise when a creditor garnishes an account at a FI that
contains Federal benefits payments. The full text of the American Bankers
Association’s proposed solutions is included in Appendix F.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)     12
                                                                    Conclusion
Millions of beneficiaries rely on Social Security benefits as their only source of income
for basic needs such as housing and food. When a creditor’s garnishment order is
enforced and these Federal funds withheld, the lives of a vulnerable segment of the
population are placed at risk. As such, additional safeguards are needed to protect
beneficiaries in this situation. To that end, we believe the potential safeguards identified
in this report provide a framework for decision makers as they identify strategies to
protect this vulnerable population.

The U.S. Senate introduced the Illegal Garnishment Prevention Act (S. 2850) on
April 14, 2008, a bill that would prevent Treasury from promoting the use of direct
deposit for Social Security beneficiaries until they put a stop to the garnishment of
Government benefits from the bank accounts of private citizens.

AGENCY COMMENTS
SSA provided specific comments on the potential safeguards discussed in our report.
SSA agreed with our potential safeguards to protect Social Security recipients from
garnishments. SSA also provided technical comments, which we addressed as
appropriate. SSA’s comments on the potential safeguards are included in Appendix H.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)        13
                                                              Other Matters
This section provides additional information about SSA and Treasury’s ability to garnish
Social Security Title II benefits in accordance with the exceptions to section 207 of the
Act. SSA and Treasury garnished about $781.1 million of Social Security benefits as
follows.

•     SSA made a total of 275,566 Court Ordered Garnishment System (COGS)
      payments totaling about $417.9 million from September 1, 2006 through
      August 31, 2007.

•     Treasury’s Financial Management Service (FMS) collected from Benefit Payment
      Offset (BPO) of Social Security benefits about $124.6 million for FY 2007.

•     Treasury’s Internal Revenue Service (IRS) collected $238.6 million via Federal
      Payment Levy Program (FPLP) from Social Security benefits for FY 2007.

SOCIAL SECURITY ADMINISTRATION GARNISHES TITLE II BENEFITS
Section 459 of the Act, 42 U.S.C. § 659, contains a specific exception to section 207 so
Title II benefits are generally subject to legal process (that is, writ, order, or summons)
brought by an individual in a State court for the enforcement of a legal obligation to
provide child support and/or make alimony payments. SSI payments are not subject to
levies or garnishment.

At SSA, the manager (or designated representative) of any Social Security field office or
processing center 24 can be “served” (that is, delivered in a manner prescribed by law) a
legal process document for the enforcement of a legal obligation to provide child
support and/or make alimony payments.

Therefore, SSA has implemented the COGS to process any garnishments. COGS is a
national system to automate withholding from beneficiaries in compliance with State or
court-ordered garnishment requests. The system will adjust Title II benefits, issue
payments to the appropriate payee, as designated in the garnishment order, and issue
appropriate notices to the garnished beneficiary and the Court. 25

COGS limits the garnishment amount to the lesser of the State maximum or the
maximum under the Consumer Credit Protection Act (CCPA) (15 U.S.C. §1673 (b)) and
is based on the law of the State where the beneficiary resides. The CCPA limits
garnishment to


24
     POMS, GN 02410.205, Service of a Garnishment Order.
25
     POMS, SM 00832.001, Court Order Garnishment System.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)        14
•     50 percent, if the beneficiary is supporting a spouse and/or child other than the
      spouse and/or child whose support has been ordered;

•     60 percent, if the beneficiary is not supporting another spouse and/or child; or

•     55 percent or 65 percent respectively, if the garnishment order or other evidence
      submitted indicates the original support ordered is 12 or more weeks in arrears. 26

TREASURY GARNISHES TITLE II BENEFITS
Treasury garnishes Social Security Title II benefits as part of the BPO program 27 and
the FPLP 28 as follows.

BPO of Federal Payments

DCIA authorized BPO. BPO is the reduction of Social Security’s Title II benefit
payments to recover delinquent non-tax debts owed to other Federal agencies. It is an
automated process performed by FMS. By law, BPO will not reduce benefit payments
below $750 per month. Therefore, Social Security beneficiaries who have been
identified by the BPO process as delinquent debtors will still receive a minimum $750
per month.

Unpaid Federal Taxes

The Taxpayer Relief Act of 1997 (P.L. 105-34) authorizes the IRS to collect overdue
Federal tax debts of individuals who receive Federal payments, including Social
Security payments. The law authorizes the IRS to levy up to 15 percent of each
payment until the tax debt is paid.

In July 2000, the IRS, in conjunction with FMS, started the FPLP. The FPLP is an
automated system that does not require SSA to take any action to reduce a payment.
The reduction, or levy, is done by FMS after SSA certifies a payment and sends it to
Treasury for disbursement. Unlike the BPO program in which the benefit payment
cannot be reduced below $750, there is no minimum amount that cannot be subjected
to FPLP. Thus, Title II benefit payments can be reduced below $750 per month to
collect a tax debt, and Title II benefit payments less than $750 a month are subject to
FPLP.




26
     POMS GN 02410.215, How Garnishment Withholding is Calculated.
27
     31 U.S.C. §3716; POMS GN 02410.300, Benefit Payment Offset (BPO).
28
     26 U.S.C. §6331(h); POMS GN 02410.305, Federal Payment Levy Program (FPLP).


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)           15
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Top 12 Largest Sized Financial Institutions
APPENDIX D – Small-, Medium- and Large-Sized Financial Institutions
APPENDIX E – Limitation on the Financial Institution’s Information
APPENDIX F – Letter from the American Bankers Association
APPENDIX G – Subpoena and Follow-Up Questions
APPENDIX H – Agency Comments




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)
                                                                          Appendix A

Acronyms
    ACH                Automated Clearing House

    Act                Social Security Act

    BPO                Benefit Payment Offset

    CCPA               Consumer Credit Protection Act

    COGS               Court Order Garnishment System

    DCIA               Debt Collection Improvement Act

    FI                 Financial Institution

    FMS                Financial Management Service

    FPLP               Federal Payment Levy Program

    FY                 Fiscal Year

    IRS                Internal Revenue Service

    NSF                Non-Sufficient Funds

    OASDI              Old-Age, Survivors, and Disability Insurance

    OIG                Office of the Inspector General

    P.L.               Public Law

    POMS               Program Operations Manual System

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    Treasury           Department of the Treasury

    U.S.C.             United States Code




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)
                                                                                   Appendix B

Scope and Methodology
On August 7, 2007, the Senate Special Committee on Aging and the Senate Committee
on Finance requested that we determine whether financial institutions (FI) were
deducting service fees and garnishments from beneficiaries’ direct deposit, personal
accounts. We did not assess, and do not express an opinion on, the overall
acceptability of the FIs’ internal controls or accounting systems. To complete our
objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    relevant criteria.

•   Interviewed staff and officials at SSA Headquarters and FIs.

•   Obtained a data extract of one segment (Segment 18) of SSA’s systems for
    beneficiaries with Old-Age, Survivors and Disability Insurance (OASDI) 1 and/or
    Supplemental Security Income (SSI) 2 payments receiving direct deposits from
    June 1, 2006 through May 31, 2007.

•   Obtained the FI names and routing numbers from the Federal Reserve Financial
    Services website (https://www.fededirectory.frb.org/FedACHdir.txt).

•   Compared the bank routing numbers in the data extract to the Department of the
    Treasury file to identify the names of the FIs. We identified 11,431 FIs in the
    United States with OASDI and/or SSI recipients receiving direct deposit from
    June 1, 2006 through May 31, 2007.

•   Selected the top 12 largest sized FIs 3 in the United States with OASDI and/or SSI
    recipients receiving direct deposit from June 1, 2006 through May 31, 2007.




1
 OASDI program established under Title II of the Social Security Act (Act), § 201 et seq.,
42 United States Code (U.S.C.) § 401 et seq. provides benefits to wage earners and their families in the
event the wage earner retires, becomes disabled or dies. OASDI benefits are paid from the Social
Security OASDI Trust Funds.
2
  SSI program, established under Title XVI of the Act, § 1601 et seq. 42 U.S.C. § 1381 et seq. provides
benefits to financially needy individuals who are aged, blind and/or disabled. SSI payments are financed
from general tax revenues.
3
 Largest sized FIs are FIs with more than 20,000 beneficiaries with direct deposit in one segment of
SSA’s systems (that is, Segment 18).


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                      B-1
•   Statistically selected four small-sized FIs, 4 four medium-sized FIs 5 and four
    large-sized FIs in the United States with OASDI and/or SSI recipients receiving
    direct deposit from June 1, 2006 through May 31, 2007. However, because of the
    inconsistency in the bank naming conventions in the Treasury file, one of the FIs
    selected in our sample of four large size FIs were, in effect, two separate FIs.
    Therefore, our sample consisted of five large size FIs 6.

•   Issued subpoena to the FIs requesting statistical information, records and/or
    documents for the time period September 1, 2006 through August 31, 2007. Also,
    we issued a follow-up letter to the FIs requesting information on the FIs “account
    hold” and “account freeze” process.

•   We consolidated the information received from the FIs to show the number of
    beneficiaries receiving (1) only direct deposits of Social Security benefits and
    (2) both direct deposits of Social Security benefits and other benefits. For each
    group, we identified the number of garnishments, total dollar amount of
    garnishments, amount of garnishments allowed by law, and the total amount of fees
    charged.

We were unable to determine the reliability of the data because of the following factors:
(a) short time frame, (b) voluminous information, (c) FIs’ difficulty interacting with legacy
system of another FI as a result of a merger and (d) FIs’ difficulty in providing the data
due to technological issues. We believe it is reasonable to use these data because they
were used for background, and we are not drawing conclusions based solely on the
data. In addition, the use of these data is limited to informational purposes and should
therefore not result in incorrect or unintentional conclusions.

The entity responsible for garnishments is under the Deputy Commissioner for
Retirement and Disability Policy, Office of Income Security Programs, Office of Payment
Policy. Our field work was conducted at SSA Headquarters from September 2007
through March 2008.

We conducted this review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.



4
 Small-sized FIs are FIs with between 1 and 50 SSA beneficiaries with direct deposit in one segment of
SSA’s systems (that is, Segment 18).
5
 Medium-sized FIs are FIs with between 51 and 100 SSA beneficiaries with direct deposit in one
segment of SSA’s systems (that is, Segment 18).
6
 Large-sized FIs are FIs with between 101 and 20,000 SSA beneficiaries with direct deposit in one
segment of SSA’s systems (that is, Segment 18).


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                   B-2
                                                                                                                          Appendix C

Top 12 Largest Sized Financial Institutions
We are presenting the top 12 largest sized financial institution (FI) data for informational purposes. We did not determine
the reliability of the data provided by the FIs.

                                             Table 9 – Top 12 Largest Sized Financial Institutions with
                                                  Only Direct Deposits of Social Security Benefits
                                                                           No. of Garnishments      Amount of Garnishments
      Financial         No. of             No. of       Total Amount of     For Child Support,         For Child Support,       Total Amount
      Institution   Account Holders     Garnishments      Garnishments     Alimony or Tax Levy        Alimony or Tax Levy         of Fees
              1
        T-02                    N/A               N/A                N/A                     N/A                          N/A             N/A
         T-04                92,745               194           $319,396                       64                  $177,129           $12,835
         T-06                60,777                59             54,078                       26                     22,531            2,115
         T-07               267,986               156            101,790                       60                     32,586           14,400
         T-08               252,832               759            108,266                     229                      47,975              N/A
         T-10               347,645               333            333,533                     115                      61,543            1,155
         T-11               177,357                 0                  0                        0                           0               0
         T-12                83,001               184            158,595                     144                     132,629              N/A
       Subtotal           1,282,343             1,685         $1,075,658                     638                   $474,393           $30,505

      N/A – Not Available

Three largest sized FIs received garnishment orders and identified the court order amount but were unable to identify if
any amounts were actually withheld due to system limitations. Therefore, we excluded these FIs from the results
presented in the body of the report. In addition, one largest sized FI was unable to provide any useable information.




1
    FI does not have a way of isolating accounts that receive only direct deposited Social Security benefits.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                                        C-1
                                        Table 10 – Top 12 Largest Sized Financial Institutions with
                                  Only Direct Deposits of Social Security Benefits - Court Order Amounts
                                                                       No. of Garnishments    Amount of Garnishments
    Financial         No. of             No. of        Court Order      For Child Support,        For Child Support,     Total Amount
    Institution   Account Holders    Garnishments    Garnishments      Alimony or Tax Levy       Alimony or Tax Levy       of Fees
       T-01               590,963             1,229      $2,418,114                     N/A                        N/A        $158,612
       T-03               224,543               442         733,773                     N/A                        N/A          25,026
       T-05                   N/A               N/A             N/A                     N/A                        N/A             N/A
       T-09                   N/A               N/A             N/A                     N/A                        N/A             N/A
     Subtotal             815,506             1,671      $3,151,887                        0                         0        $183,638

    N/A- Not Available

       Total             2,097,849             3,356     $4,227,545                     638                  $474,393        $214,143


Legend:
T = Top Largest-Sized Financial Institutions




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                                 C-2
                                        Table 11 – Top 12 Largest Sized Financial Institutions with
                                      Direct Deposited Social Security Benefits and Other Deposits
                                                                      No. of Garnishments      Amount of Garnishments
    Financial         No. of           No. of       Total Amount of    For Child Support,         For Child Support,           Total Amount
    Institution   Account Holders   Garnishments     Garnishments     Alimony or Tax Levy        Alimony or Tax Levy             of Fees
            2
      T-02              2,419,034           4,424        $4,831,847                   1,657                  $2,465,710            $248,636
       T-04             1,668,330           3,497        19,756,869                   1,198                   4,011,682              470,950
       T-06               439,778           1,368          1,478,888                    488                     740,736               91,256
       T-07               787,484             864          1,702,528                    444                     805,563              108,120
       T-08               273,257             689            106,613                    213                      30,634                  N/A
       T-10               660,703           1,056            247,747                    371                      46,914                5,575
       T-11               121,344             528            820,126                    528                     820,126               45,456
       T-12               184,834             308            300,125                    237                     245,303               24,150
     Subtotal           6,554,764          12,734       $29,244,743                   5,136                  $9,166,668            $994,143

    N/A – Not Available

Three largest sized FIs received garnishment orders and identified the court order amount but were unable to identify if
any amounts were actually withheld due to system limitations. Therefore, we excluded these FIs from the results
presented in the body of the report. In addition, one largest sized FI was unable to provide any useable information.




2
 FI does not have the database or resources to segregate the accounts which received Social Security into accounts receiving only direct deposit
Social Security benefits and accounts receiving Social Security and “other deposits.” Therefore, we included the FI amounts as Social Security
and “other deposits.”



FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                                       C-3
                                       Table 12 – Top 12 Largest Sized Financial Institutions with
                          Direct Deposited Social Security Benefits and Other Deposits – Court Order Amounts
                                                                      No. of Garnishments    Amount of Garnishments
    Financial         No. of           No. of        Court Order       For Child Support,       For Child Support,                   Total Amount
    Institution   Account Holders Garnishments      Garnishments      Alimony or Tax Levy      Alimony or Tax Levy                     of Fees
       T-01             6,775,287         19,274      $37,976,702                      N/A                        N/A                   $1,960,648
       T-03             1,987,118          8,651       11,482,804                      N/A                        N/A                      479,939
       T-05                   N/A             N/A              N/A                     N/A                        N/A                          N/A
            3
      T-09              1,154,678             833        7,319,383                        0                         0                       32,590
     Subtotal           9,917,083         28,758      $56,778,889                         0                         0                   $2,473,177

    N/A – Not Available

       Total              16,471,847          41,492        $86,023,632                       5,136                   $9,166,668        $3,467,320




3
  FI stated that it is not able to identify accounts which have Social Security direct deposits as their sole source of funds. Therefore, the FI
included both Social Security benefits and other deposits; as well as, only direct deposits of Social Security benefits in this figure.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                                                  C-4
                                                                                                                 Appendix D

Small-, Medium- and Large-Sized Financial Institutions
We are presenting the 13 small, medium and large-sized financial institution (FI) data for informational purposes. We did
not determine the reliability of the data provided by the FIs.

                                Table 13 – Small-. Medium- and Large-Sized Financial Institutions with
                                            Only Direct Deposits of Social Security Benefits
                                                                        No. of Garnishments    Amount of Garnishments
   Financial        Number of        Number of       Total Amount of     For Child Support,       For Child Support,    Total Amount
   Institution    Account Holders  Garnishments       Garnishments      Alimony or Tax Levy      Alimony or Tax Levy       of Fees

S-01                           31               0                 $0                    N/A                      N/A                $0
S-02                           86               0                  0                    N/A                      N/A                 0
S-03                           24               0                  0                    N/A                      N/A                 0
S-04                          350               0                  0                    N/A                      N/A                 0
Small FIs                     491               0                 $0                    N/A                      N/A                $0

M-01                        1,206               0                 $0                      0                        0                 $0
M-02                          N/A             N/A                N/A                    N/A                      N/A                N/A
M-03                          973               0                  0                      0                        0                  0
M-04                          991               0                  0                      0                        0                  0
Medium FIs                  3,170               0                 $0                      0                        0                 $0

L-01                          N/A               0                 $0                      0                        0                 $0
L-02                          971               0                  0                      0                        0                  0
L-03                          678               1              3,900                      1                   $3,900                 50
L-04                            0               0                  0                    N/A                      N/A                  0
L-05                        1,212               0                  0                    N/A                      N/A                  0
Large FIs                   2,861               1             $3,900                      1                   $3,900                $50

N/A – Not Available




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                             D-1
                                Table 14 – Small-. Medium- and Large-Sized Financial Institutions with
                                    Direct Deposited Social Security Benefits and Other Deposits
                                                                      No. of Garnishments     Amount of Garnishments
    Financial        Number of        Number of     Total Amount of    For Child Support,        For Child Support,    Total Amount
    Institution    Account Holders Garnishments      Garnishments     Alimony or Tax Levy       Alimony or Tax Levy      of Fees

 S-01                           18              0                $0                    N/A                      N/A                $0
 S-02                          N/A              0                 0                    N/A                      N/A                 0
 S-03                           14              0                 0                    N/A                      N/A                 0
 S-04                           44              0                 0                    N/A                      N/A                 0
 Small FIs                      76              0                $0                    N/A                      N/A                $0

 M-01                        2,285              4            $4,973                      3                   $2,440             $50
 M-02                          N/A            N/A               N/A                    N/A                      N/A             N/A
 M-03                          265              2                65                      0                        0               0
 M-04                        1,344              0                 0                      0                        0               0
 Medium FIs                  3,894              6            $5,038                      3                   $2,440             $50

 L-01                          N/A              1            $4,002                      1                   $4,002               0
 L-02                          N/A              1               500                      1                      500               0
 L-03                        3,230              4            45,480                      1                    3,900             350
 L-04                          450              0                 0                    N/A                      N/A               0
 L-05                        1,129              1               169                      0                        0               0
 Large FIs                   4,809              7           $50,151                      3                   $8,402            $350

 N/A – Not Available



Legend:

S = Small-Sized Financial Institutions
M = Medium-Sized Financial Institutions
L = Large-Sized Financial Institutions




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                                            D-2
                                                                          Appendix E

Limitation on the Financial Institutions’
Information
Although we consolidated the financial institution (FI) data for the 25 institutions (see
Tables 9 through 14), the data collected were inconsistent. Several of the FIs were
limited in the amount of information available as follows.

1. Two FIs did not have the ability through an automated search process to provide the
   requested information for the entire time period of September 1, 2006 through
   August 31, 2007. Instead, the FIs provided information for 1 month. Therefore, we
   extrapolated the figures from this month to the entire 12-month period to estimate
   the numbers for the covered time period.

2. Six FIs could not provide either the number of account holders who received only
   Social Security deposits or number of account holders who receive Social Security
   deposits and other deposits due to technological issues (that is, FIs’ computerized
   system did not maintain this information). Additionally, one FI stated it had to
   manually research the hard copy reports to respond to our request.

3. One FI did not keep records on garnishments, such as the dollar amount that was
   withheld from the account. Also, three FIs were only able to provide the amount on
   the court order but were unable to identify if any amounts were actually withheld due
   to system limitations. Additionally, two FIs were unable to segregate the alimony
   garnishment from the third-party garnishments because of system limitations.

4. Two FIs did not keep records on the dollar amount of any fees that were charged
   against the account because of the garnishment.

5. One FI stated that it was difficult to interact with the legacy system of another FI as a
   result of a merger with that FI. The legacy system makes it difficult to identify
   exempt funds from the merged FI.

The lack of consistent information limits the use of this data to informational purposes.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)
                                                                          Appendix F

Letter from the American Bankers Association




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-1
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-2
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-3
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-4
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-5
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-6
FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   F-7
                                                                          Appendix G

Subpoena and Follow-Up Questions
In September 2007, we issued a subpoena to the FIs requesting statistical information,
records and/or documents for the time period September 1, 2006 through
August 31, 2007. Specifically, we requested the following:

1. With regard to all accounts and account holders in your institution receiving only
   direct deposits of Social Security benefits:

   A. Your institution’s polices and procedures regarding third-party garnishments, and
      your own use of “set-off” to collect money your customers owe you.

   B. The number of account holders at your financial institution receiving only Social
      Security and Supplemental Security Income (SSI) benefits through direct deposit.

   C. The total number of garnishments involving bank accounts receiving only direct
      deposited Social Security benefits.

   D. The total dollar amount of garnishments involving bank accounts receiving only
      direct deposited Social Security benefits.

   E. The total dollar amount of all charges and fees assessed by your institution
      related to all garnishment activity.

   F. A breakdown of the types of charges and fees assessed by your institution
      related to garnishment activity, including but not limited to: fees for imposition of
      a freeze on the account; fees for any resulting bounced checks; fees for short
      term loans; fees for release of a freeze on the account; and any other fees.

2. With regard to all accounts and account holders in your institution receiving both
   direct deposited Social Security benefits and other deposits:

   A. Your institution’s polices and procedures regarding third-party garnishments, and
      your own use of “set-off” to collect money your customers owe you.

   B. The number of account holders at your financial institution receiving both direct
      deposited Social Security and SSI benefits and other deposits.

   C. The total number of garnishments involving bank accounts receiving both direct
      deposited Social Security benefits and other deposits.

   D. The total dollar amount of garnishments involving bank accounts receiving both
      direct deposited Social Security benefits and other deposits.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)       G-1
      E. The total dollar amount of all charges and fees assessed by your institution
         related to all garnishment activity.

      F. A breakdown of the types of charges and fees assessed by your institution
         related to garnishment activity, including but not limited to: fees for imposition of
         a freeze on the account; fees for any resulting bounced checks; fees for short
         term loans; fees for release of a freeze on the account; and any other fees.

Also, in January 2008 we issued a follow-up letter to the FIs requesting information on
the FIs “account hold” and “account freeze” process as follows:

Account Hold and Account Freeze

Also, from analyzing the information provided, we found that in the course of a
garnishment /levy, there are “account holds” 1 and “account freezes” 2 which are part of
the process. As we have previously indicated, we are concerned as to the effect such
actions may have on individuals who are receiving Social Security benefits and SSI. As
a result, we have identified six additional “account hold” and “account freeze” questions
to which we are requesting your response. The questions are as follows:

1. Are “account holds” and “account freezes” considered to be a process unto itself or
   are they considered to be part of the garnishment/levy process? Please describe
   when an account hold would be placed on an account and when an account freeze
   would be placed on an account.

2. We understand that each State has its own statute regarding the length of time
   within which a person has to object to a hold or freeze against their bank account. In
   addition, each State has varying time periods within which you, as a financial
   institution that has been served with a garnishment/levy, have to respond to the
   garnishment/levy.

We have several procedural questions as to the mechanics of the account holds and/or
account freezes in relation to the garnishment/levy.

      a. If the funds in the individual’s bank account exceed the amount of the
         garnishment/levy, does the individual have immediate access to the funds over
         the amount of the garnishment/levy?

      b. If the funds in the individual’s bank account are less than the amount of the
         garnishment/levy, are subsequent deposits subject to the receipt of the
         garnishment/levy unavailable to be accessed by the account holder? If so, under


1
    By “account hold” we are referring to funds set aside that are not available for withdrawal.
2
  By “account freeze” we are referring to a bank account from which funds may not be withdrawn until a
lien (e.g., garnishment/levy) is satisfied and/or a court order is received freeing the balance.


FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)                  G-2
       what circumstances are other funds deposited subsequent to receipt of the
       subject garnishment/levy available to be accessed by the account holder?

If the garnishment/levy is dismissed by agreement or court order after an account hold
and/or account freeze is initiated and prior to any funds being forwarded by the financial
institution to satisfy the garnishment/levy:

   c. Are any checks which may have not been honored during the period that the
      account hold and/or account freeze was in effect due to insufficient funds
      honored? If this has occurred, could you please provide the number of checks
      that were subsequently honored?

   d. Are any fees assessed against the bank account due to the account hold or
      account freeze of funds forgiven and returned to the account holder? If this has
      occurred, can you please provide the total amount of fees that were returned?

3. We would like to confirm that the figure you previously provided to question 1C of
   the subpoena regarding the total number of garnishments (see Enclosure) includes
   the number of account holds and/or account freezes placed on the account.

   a. If this is incorrect, please explain what this figure represents. If account holds
      and account freezes are not included in the total number of garnishments, in
      what circumstances are these not included in the total number of garnishments?
      Also, please provide the number of account holds and/or account freezes placed
      on an account receiving only direct deposited Social Security or SSI funds for the
      period from September 1, 2006, through August 31, 2007.

   b. From the total number of account holds and account freezes, please provide the
      number of account holds and/or account freezes that were removed without any
      funds being removed from the account to satisfy the garnishment/levy.

4. We would like to confirm that the figure you previously provided to question 1E of the
   subpoena regarding the total dollar amount of all charges and fees assessed by your
   institution related to garnishments (see Enclosure) includes the amounts of account
   holds and/or account freezes placed on an account.

   a. If this is incorrect, please explain what this figure represents. If account holds
      and account freezes are not included in the total dollar amount of all charges and
      fees related to garnishments, in what circumstances are these not included in the
      total dollar amount of garnishments? Also, please provide the total dollar amount
      of all charges and fees assessed by your institution related to the account holds
      and/or account freezes placed on an account receiving only direct deposited
      Social Security or SSI funds for the period from September 1, 2006, through
      August 31, 2007.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)    G-3
   b. From this total dollar amount of all charges and fees related to the account holds
      and account freezes, please provide the total dollar amount of all charges and
      fees assessed by your institution related to the account holds and/or account
      freezes that were removed without any funds being removed from the account to
      satisfy the garnishment/levy.

5. We would like to confirm that the figure you previously provided to question 2C of
   the subpoena regarding the total number of garnishments (See Enclosure) includes
   the number of account holds and/or account freezes placed on the account.

   a. If this is incorrect, please explain what this figure represents. If account holds
      and account freezes are not included in the total number of garnishments, in
      what circumstances are these not included in the total number of garnishments?
      Also, please provide the number of account holds and/or account freezes placed
      on an account receiving both direct deposited Social Security or SSI funds along
      with other direct deposits for the period from September 1, 2006, through
      August 31, 2007.

   b. From the total number of account holds and account freezes, please provide the
      number of account holds and/or account freezes that were removed without any
      funds being removed from the account to satisfy the garnishment/levy.

6. We would like to confirm that the figure you previously provided to question 2E of the
   subpoena regarding the total dollar amount of all charges and fees assessed by your
   institution related to garnishments (See Enclosure) includes the amounts of account
   holds and/or account freezes placed on an account.

   a. If this is incorrect, please explain what this figure represents. If account holds
      and account freezes are not included in the total dollar amount of all charges and
      fees related to garnishments, in what circumstances are these not included in the
      total dollar amount of garnishments? Also, please provide the total dollar amount
      of all charges and fees assessed by your institution related to the account holds
      and/or account freezes placed on an account receiving both direct deposited
      Social Security and/or SSI funds along with other direct deposits for the period
      from September 1, 2006, through August 31, 2007.

   b. From this total dollar amount of all charges and fees related to the account holds
      and account freezes, please provide the total dollar amount of all charges and
      fees assessed by your institution related to the account holds and/or account
      freezes that were removed without any funds being removed from the account to
      satisfy the garnishment/levy.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)   G-4
                                                                          Appendix H

Agency Comments



                       RESPONSE TO REQUEST FOR COMMENTS
Office of the Inspector General’s (OIG) Congressional Response Report (A-15-08-28031),
 "Financial Institutions Deducting Fees and Garnishments From Social Security Benefits"


Thank you for the opportunity to review the above-subject report. We appreciate the
OIG’s work in exploring this issue. We believe that the report is a valuable contribution to
understanding and addressing the garnishment problem.

Comments on Safeguards

With respect to recommended safeguards 1, 3, and 4, we fully support and encourage the
efforts of the Treasury Department and the regulators to explore these and other
safeguards.

With respect to recommended safeguard 2, we offer the following clarification. Section
207 is clearly both a bar against garnishment and a defense to be raised when necessary.
We believe the defense should be needed only when a party attempts to garnish social
security benefits despite section 207 clear prohibitions. We will review our procedures to
ensure that they clearly state that the garnishment exemption is both a bar and a
defense.




FIs Deducting Fees and Garnishments from Social Security Benefits (A-15-08-28031)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
